         SIGAR                                           Special Inspector General for
                                                          Afghanistan Reconstruction




             OFFICE OF SPECIAL PROJECTS



        GEOSPATIAL FACT SHEET: OVERSIGHT ACCESS
        FOR SELECTED U.S. ARMY CORPS OF ENGINEERS
        PROJECTS AND THE KAJAKI DAM PROJECT




                                 This product was completed under SIGAR’s Office of Special Projects, the
                                 Special Inspector General’s response team created to examine emerging
                                 issues in prompt, actionable reports to federal agencies and the Congress.
                                 The work was conducted pursuant to the Special Inspector General’s
                                 authorities and responsibilities under the National Defense Authorization Act
                                 for FY 2008 (P.L. 110-181).




                                                          JANUARY 2014
                                                                                       SIGAR-14-28-SP


SIGAR-14-28-SP/USACE PROJECTS & KAJAKI DAM
January 22, 2014


Congressional Committees:
This report is the first of a series of reports illustrating the potential oversight access challenges
for U.S. reconstruction projects and programs in Afghanistan. It identifies various U.S. Army
Corps of Engineers (USACE) projects and one U.S. Agency for International Development (USAID)
reconstruction project which may not be readily accessible to U.S. civilian oversight personnel as
a result of the impact of the coalition troop drawdown on security.

I have been concerned about the impact of the coalition troop drawdown on security and the
related implications for ensuring adequate oversight of the U.S. funded reconstruction effort in
Afghanistan. This is a serious issue not only for SIGAR but all U.S. and international agencies
involved in overseeing the Afghanistan reconstruction effort. U.S. military officials have advised
SIGAR that in the future they can only provide U.S. civilian access to areas within a one-hour
round trip of an advanced medical facility. State Department officials have told SIGAR that their
ability to reach reconstruction sites will be extremely limited due to this. Similarly, the USAID
mission in Afghanistan is exploring how to use third-party monitoring to help oversee
reconstruction sites to help protect the U.S. taxpayers’ investment as U.S. military units are
withdrawn, coalition bases are closed, and civilian reconstruction offices in the field are closed.

To help illustrate this oversight challenge, on October 10, 2013, SIGAR published a letter
showing the areas that may not be accessible in 2014 (see Attachment I).1 Although exceptions
may be made, most requests to visit reconstruction sites outside of these oversight-access
areas will probably be denied, forcing U.S. government agencies to consider alternative forms of
oversight for these projects.2 Further illustration of the oversight access challenges facing U.S.
officials in Afghanistan is shown in Attachment II. This map shows the relationship of USACE
projects and USAID’s on-budget infrastructure project at Kajaki Dam to the oversight-access
areas that we project will exist at the end of 2014.3

Data used in the creation of this map is of April 2013, the most recent project information
provided to SIGAR by USACE. While we recognize that the status of these projects will change as
they are completed or terminated, the attached map demonstrates that these USACE projects



1The map shows possible oversight access at the end of transition based on current U.S. government assessments, which
may change based on ongoing negotiations with the Government of the Islamic Republic of Afghanistan. The oversight
access map was prepared by the U.S. Army Geospatial Center based on information provided by SIGAR. Specific locations
and other technical detail in the source documents were omitted for the sake of security. For more details, please see
SIGAR 14-4-SP, Oversight Access Inquiry, October 10, 2013.
2Alternative forms of oversight include the use of Local National Quality Assurance (LNQA) representatives, in-person
meetings at USG offices or via telephone, hiring of contracted security personnel with specific engineering skills to conduct
quality assurance visits to inaccessible sites, and viewing projects remotely with the use of aerial platforms.
3   The enclosed map and list do not show completed infrastructure projects that need to be maintained.
might be affected by the shrinking oversight access areas if they are still ongoing at the end of
2014. SIGAR is concerned that some of these projects may not get proper oversight by USACE if
they are still ongoing at the end of 2014.

SIGAR has requested updates for the geospatial information we have already received from the
USACE and requested similar information for other Department of Defense, Department of
State, and USAID reconstruction projects. We will publish this information as it becomes
available to help policy makers assess the risks of restricted oversight access for various
reconstruction projects in Afghanistan.4

This product was completed by SIGAR’s Office of Special Projects, the SIGAR response team
created to examine emerging issues in prompt, actionable reports to federal agencies and the
Congress. To conduct this review, we examined information provided to SIGAR by the
Department of Defense and USAID. We interviewed individuals with the Department of State and
the International Security Assistance Force. We also received technical assistance for the U.S.
Army Geospatial Center. The work was conducted under the authority of Public Law No. 110-
181, as amended; the Inspector General Act of 1978; and the Inspector General Reform Act of
2008.




                                                                           Sincerely,



                                                                           John F. Sopko
                                                                           Special Inspector General
                                                                              for Afghanistan Reconstruction


Attachments:         I) 2014 Oversight Access Map

                     II) Map of Select Reconstruction Projects as of April 2013 to the Projected
                     Oversight Access Areas at the End of 2014

                     III) Detailed List of Select Reconstruction Projects as of April 2013 to the
                     Projected Oversight Access Areas at the End of 2014




4The information in this report regarding USACE reconstruction projects is as of April 2013. The most recent information on
USACE reconstruction projects outside the oversight-access areas has been classified by DOD.




SIGAR-14-28-SP/USACE PROJECTS & KAJAKI DAM                                                                          Page 3
LIST OF COMMITTEES
The Honorable Buck McKeon
Chairman
The Honorable Adam Smith
Ranking Member
Committee on Armed Services
U.S. House of Representatives
2120 Rayburn House Office Building
Washington, D.C., 20515

The Honorable Rodney Frelinghuysen
Chairman
The Honorable Peter Visclosky
Ranking Member
Committee on Appropriations, Subcommittee on Defense
U.S. House of Representatives
H-405, The Capitol
Washington, D.C., 20515

The Honorable Darrell Issa
Chairman
The Honorable Elijah Cummings
Ranking Member
Committee on Oversight and Government Reform
U.S. House of Representatives
2157 Rayburn House Office Building
Washington, D.C., 20515

The Honorable Carl Levin
Chairman
The Honorable James Inhofe
Ranking Member
Committee on Armed Services
United States Senate
228 Russell Senate Office Building
Washington, D.C., 20515

The Honorable Richard Durbin
Chairman
The Honorable Thad Cochran
Ranking Member
Committee on Appropriations, Subcommittee on Defense
United States Senate
122 Dirksen Senate Office Building
Washington, D.C., 20515

The Honorable Thomas Carper
Chairman
The Honorable Tom Coburn
Ranking Member
Committee on Homeland Security and Governmental Affairs
United States Senate
340 Dirksen Senate Office Building
Washington, D.C., 20515



SIGAR-14-28-SP/USACE PROJECTS & KAJAKI DAM                Page 4
ATTACHMENT I: 2014 OVERSIGHT ACCESS MAP




SIGAR-14-28-SP/USACE PROJECTS & KAJAKI DAM   Page 5
ATTACHMENT II: MAP OF SELECT RECONSTRUCTION PROJECTS AS OF APRIL
2013 TO THE PROJECTED OVERSIGHT ACCESS AREAS AT THE END OF 2014




SIGAR-14-28-SP/USACE PROJECTS & KAJAKI DAM                    Page 6
ATTACHMENT III: DETAILED LIST OF SELECT RECONSTRUCTION PROJECTS
POTENTIALLY OUTSIDE OF OVERSIGHT ACCESS AREAS AT THE END OF 20145


                                                                                                Project
                                                                  Estimated Total   Funding                   Map
                   Description/Location                                                       Completion
                                                                    Project Cost     Source                   Label
                                                                                                 Date

    SEPS Helmand Transmission Lines & Subs                       $108,565,053.00      AIF      7/1/2014            12

    ANA 3/207 Brigade Camp CED Badghis                            $81,262,059.87     ASFF      5/1/2014            28

    Kajaki Dam (USAID)                                            $75,000,000.00    USAID     Unknown              61

    ANP ANCOP Collective Training Center                          $30,071,985.00     ASFF     1/24/2015            10

    ANA 6/2/203 Rushmore South Infantry Kand                      $28,369,159.82     ASFF      6/4/2014            53

    ANA 2/3/203 Infantry Kandak at Moqur Dis                      $26,544,496.00     ASFF     6/16/2014            55

    Kajaki Tunnel Wks, Intake Twr, & Piezom.                      $25,642,901.95      AIF     11/17/2014           62

    ANA FAARP Kunduz                                              $21,750,000.00     ASFF     7/14/2014            13

    ANP MOI Supply Point Fire Dept DHQ                            $21,641,420.46     ASFF     8/31/2014            42

    ANA 3/4/205 Brigade Garrison Phase 2                          $20,200,000.00     ASFF     8/24/2014            57

    AIF Ghulam Khan Corridor                                      $20,100,000.00      AIF     11/6/2014            50

    ANA Parsa Garrison Upgrades                                   $18,788,080.41     ASFF     1/15/2014            48

    ANP ANCOP Patrol BNatBadghis                                  $15,887,392.89     ASFF     10/11/2014           29

    ANA AAF Shindand Air Wing Ph IV                               $15,667,519.00     ASFF     6/18/2014            31

    ANP MOI Supply P, Fire Dept DHQ-Zaranj                        $11,991,641.00     ASFF     5/28/2014            71

    ANP UP District HQs Baglan Province                            $8,067,014.00     ASFF     8/25/2014            20



5   List of selected projects were provided to SIGAR in April, 2013.




SIGAR-14-28-SP/USACE PROJECTS & KAJAKI DAM                                                                Page 7
 ANP UP Provincial HQ at Sar-i-Pol, Sar-i-   $7,036,543.60   ASFF    5/1/2014            19

 ANP MOI Supply Point at Qalat Zabul         $6,947,037.00   ASFF   4/29/2014            66

 ANP MOI Supply Point at Farah               $6,776,674.12   ASFF   2/15/2014            59

 ANP Border Crossing Post, Aquina Faryab     $6,759,872.00   ASFF   5/31/2014            3

 ANP Border Cross, Gulam Khan                $6,444,658.00   ASFF    3/6/2014            51

 I&P Ghor Tepa Road                          $5,966,030.00   CERP   3/15/2014            11

 ANP BP BN HQ at Kalata Nazar                $5,584,774.80   ASFF   7/21/2014            46

 ANP MOI Supply Point at Pul-e Khumri,       $5,570,000.00   ASFF   9/16/2014            23

 ANP MOI Supply Point, Sherberghan, Jowzj    $5,125,939.24   ASFF   6/13/2014            14

 ANP PRC & Fire Dept at Uruzgan              $5,066,232.00   ASFF   6/15/2014            58

 ANP Border Police Company HQ at Kal Yarak   $4,989,187.00   ASFF    4/1/2014            41

 ANP UP District HQ at Shinkay, Zabul        $4,963,078.80   ASFF    8/4/2014            67

 ANP BP Company HQ at Kot Kalay, Khost       $4,500,000.00   ASFF   9/19/2014            43

 BP Company HQ at Tapa Talab Khan            $4,500,000.00   ASFF   9/12/2014            72

 ANP BP Company HQ, Andkhoy, Faryab          $4,437,293.38   ASFF   1/31/2014            8

 ANA 2/2/209 Barracks                        $4,400,700.00   ASFF   9/12/2014            6

 ANP BP Company HQ at Takht Qubat            $4,350,000.00   ASFF   9/18/2014            9

  ANP BP Company HQ at Shirin Tagab,                                                     18
                                             $4,350,000.00   ASFF   9/18/2014
 Faryab

 ANP BCP at Posht-e-Koh Bazaar               $4,089,563.52   ASFF   6/28/2014            65

 ANP BP Company HQ, Qala Panja               $3,842,494.00   ASFF   5/31/2014            7

 ANP Provincial Response Company             $3,765,142.00   ASFF   4/27/2014            52

 I&P Parwan to Bamyan Section 6.1            $3,750,000.00   AIF    10/30/2014           32

 ANP Main RD Sec Co at Almar, Faryab         $3,684,700.00   ASFF    3/3/2014            24


SIGAR-14-28-SP/USACE PROJECTS & KAJAKI DAM                                      Page 8
 ANP Provincial Response Company at Pol-e-   $3,504,955.24   ASFF   4/26/2014            15

 ANP BPC FD Class B at Shir Khan             $3,500,515.00   ASFF   5/12/2014            4

 ANP BP Co. HQ at Chalorka                   $3,379,595.00   ASFF   8/14/2014            69

 ANP Class B Fire Dept Chaghcharan, Ghor     $3,325,855.27   ASFF    6/4/2014            37

 AIF Parwan to Bamyan Section 6.2            $3,288,799.00   AIF    11/9/2014            33

 ANP UP Dist HQ, Sar Hawza, Paktika          $3,206,921.83   ASFF   12/31/2014           54

 ANP Main RD Sec Co at Qaisar, Faryab        $3,091,000.00   ASFF   5/15/2014            25

 ANP UP District HQ at Darwaz, Badakhshan    $3,021,198.63   ASFF   6/30/2014            1

 ANP Main Road Security Co., Bala Baluk      $2,997,218.00   ASFF   5/22/2014            56

 ANP Main Rd Sec. Co at Shebergan, Jawzjan   $2,971,773.80   ASFF    5/1/2014            12

 ANP Fire Department Class B, Feyzabad       $2,970,328.39   ASFF    1/2/2014            5

 ANP FD Class B at Khost, Khost              $2,806,628.00   ASFF   3/16/2014            49

 ANP R-Police Dist HQ, Wali Moh Shah         $2,778,411.00   ASFF   10/3/2014            44

 ANP BP Co. HQ at Tapa Khoran                $2,641,086.14   ASFF   7/21/2014            70

 ANP BP Co. HQ at Dow Kohana                 $2,637,445.13   ASFF    7/9/2014            68

 ANP Police Dist HQ, Waghez, Ghazni          $2,548,400.00   ASFF   9/14/2014            47

 ANP UP District HQ at Sari Pul, Sar-ePul    $2,544,994.86   ASFF   1/31/2014            16

 ANP UP District HQ, Waza Khawa, Paktika     $2,542,530.00   ASFF   6/30/2014            64

 ANP UP District HQ at Qala-e-Kah, Farah     $2,412,696.00   ASFF   11/21/2014           63

 ANP R-UP District HQ at Khawja Herjan, Ba   $2,400,000.00   ASFF    9/1/2014            21

 ANP UP District HQ at Bamyan, Bamyan        $2,222,779.00   ASFF    3/7/2014            35

 ANP R-Police Dist HQ, Nawur, Ghazni         $2,199,500.00   ASFF   3/15/2014            40

 ANP UP District HQ at Panjab, Bamyan        $1,999,922.00   ASFF   6/27/2014            38



SIGAR-14-28-SP/USACE PROJECTS & KAJAKI DAM                                      Page 9
 ANP UP District HQ at Ru Ye Sang Kahmard           $1,937,610.00    ASFF   4/2/2014         26

 ANP Police Dist HQ, Precinct 4, Ghazni             $1,922,181.50    ASFF   7/10/2014        45

 ANP UP District HQ at Waras, Bamyan                $1,882,626.00    ASFF   5/16/2014        39

 ANA 1/209 Bde Meymanah PRT Conversion              $1,667,540.00    ASFF   8/26/2014        22

 ANP UP District HQ, Sayghan, Bamyan                $1,652,427.89    ASFF   2/9/2014         27

 ANP UP District HQ at Nayak Yakawlang              $1,616,646.32    ASFF   6/23/2014        36

 ANP UP District HQ at Borka Burkah Baghla          $1,515,891.00    ASFF   5/17/2014        17

 ANP UP Substation, Shaybar District, Bam           $1,327,147.85    ASFF   8/1/2014         30

 ANP UP DHQ at Raghistan, Badakhshan Prov           $1,017,200.00    ASFF   1/16/2014        2

                                             Total $725,980,465.71
 Source: USACE and USAID



ABBREVIATIONS


       AIF         Afghanistan Infrastructure Fund
       ANP         Afghan National Police
       ANA         Afghan National Army
       ASFF        Afghanistan Security Forces Fund
       BP          Border Patrol
       CERP        Commanders’ Emergency Relief Program
       HQ          Headquarters
       MOI         Ministry of Interior
       USACE       U.S. Army Corps of Engineers
       USAID       U.S. Agency for International Development




SIGAR-14-28-SP/USACE PROJECTS & KAJAKI DAM                                         Page 10
                             The mission of the Special Inspector General for Afghanistan
         SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                             reconstruction of Afghanistan by conducting independent and
                             objective audits, inspections, and investigations on the use of
                             taxpayer dollars and related funds. SIGAR works to provide accurate
                             and balanced information, evaluations, analysis, and
                             recommendations to help the U.S. Congress, U.S. agencies, and
                             other decision-makers to make informed oversight, policy, and
                             funding decisions to:
                                         improve effectiveness of the overall reconstruction
                                          strategy and its component programs;
                                         improve management and accountability over funds
                                          administered by U.S. and Afghan agencies and their
                                          contractors;
                                         improve contracting and contract management
                                          processes;
                                         prevent fraud, waste, and abuse; and
                                         advance U.S. interests in reconstructing Afghanistan.



Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                             site (www.sigar.mil). SIGAR posts all publically released reports,
 Reports and Testimonies     testimonies, and correspondence on its Web site.




                             To help prevent fraud, waste, and abuse by reporting allegations of
 To Report Fraud, Waste,     fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
and Abuse in Afghanistan     hotline:
Reconstruction Programs                  Web: www.sigar.mil/fraud
                                         Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                         Phone Afghanistan: +93 (0) 700-10-7300
                                         Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                         Phone International: +1-866-329-8893
                                         Phone DSN International: 312-664-0378
                                         U.S. fax: +1-703-601-4065




                             Public Affairs Officer
            Public Affairs               Phone: 703-545-5974
                                         Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                         Mail: SIGAR Public Affairs
                                          2530 Crystal Drive
                                          Arlington, VA 22202
